   AUDIT REPORT

U.S. Fish and Wildlife Service
 Federal Assistance Grants
Administered by the State of
 Alaska, Department of Fish
and Game, from July 1, 2000,
           through
        June 30, 2002




  Report No. R-GR-FWS-0017-2003

                         July 2004
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                      External Audits
                             12030 Sunrise Valley Drive, Suite230
                                   Reston, Virginia 20191
                                                                                      July 9, 2004

                                    AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Joe Ansnick
           Director of External Audits

Subject:   Final Audit Report on U.S. Fish and Wildlife Service Federal Assistance Grants
           Administered by the State of Alaska, Department of Fish and Game, from
           July 1, 2000, through June 30, 2002 (No. R-GR-FWS-0017-2003)


       This report presents the results of our audit of costs incurred by the State of Alaska,
Department of Fish and Game (Department) and of $49.9 million claimed under Federal
Assistance grants from the U.S. Fish and Wildlife Service (FWS) for the period July 1, 2000,
through June 30, 2002 (see Appendix 1).

       We found that the Department had claimed ineligible costs and that improvements were
needed in accounting for project costs and asset management.

      FWS Region 7 responded to a draft of this report on May 13, 2004, and included the
Department’s April 28, 2004 response to the draft. We have added the responses after our
recommendations and summarized the status of the recommendations in Appendix 3.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written response by October 11, 2004, to the unimplemented recommendations included in this
report. Your response should include information on actions taken or planned, including target
dates and titles of officials responsible for implementation. If you have any questions regarding
this report, please contact me at 703-487-5353 or Mr. K. Timothy Gallagher, Audit Team
Leader, at 916-978-5657.

cc:     Regional Director, Region 7
         U.S. Fish and Wildlife Service
                                             Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 authorize FWS to provide Federal Assistance grants to the states to enhance their
sport fish and wildlife programs. The Acts provide for FWS to reimburse the states up to 75
percent of all eligible costs incurred under the grants. They also specify that state hunting and
fishing license revenues cannot be used for any purpose other than the administration of the state
fish and game agency.

Scope, Objective, and Methodology
We performed our audit at the Department’s headquarters in Juneau, Alaska. We also visited
several fish hatcheries and fish and wildlife areas (see Appendix 2). The objective of our audit
was to evaluate:

              ¾ the adequacy of the Department’s accounting system and related internal controls;
              ¾ the accuracy and eligibility of the direct and indirect costs claimed under the
                Federal Assistance grant agreements with FWS;
              ¾ the adequacy and reliability of the Department’s hunting and fishing license fees
                collection and disbursement process;
              ¾ the adequacy of the Department’s asset management system and related internal
                controls with regard to purchasing, control and disposal; and
              ¾ the adequacy of the Department’s compliance with the Acts’ assent legislation
                requirements.

The audit also included a review of other issues considered sensitive and/or significant by FWS.
We relied on the work of the State of Alaska Single Audit Report auditors to the extent possible
in order to avoid a duplication of audit effort. The audit work at the Department included claims
totaling approximately $49.9 million on FWS grants that were open during the State’s fiscal
years ended June 30, 2001, and 2002 (see Appendix 1).

We performed our audit in accordance with the government auditing standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the
Department to the grants; interviews with employees to ensure that all personnel costs charged to
the grants were supportable; and a review of the Department's use of fishing and hunting license
revenues to determine whether the revenues had been used for program purposes. We did not
evaluate the economy, efficiency, and effectiveness of the Department’s operations.




1
    As amended, 16 USC 669 and 16 USC 777, respectively.


                                                       2
Prior Audit Coverage
On November 6, 1998, we issued audit report No. 99-E-80, “Audit of U.S. Fish and Wildlife
Service Federal Aid Grants to the State of Alaska, Department of Fish and Game, for Fiscal
Years ended June 30, 1995 and 1996.” We reviewed this report and followed up on all findings
to determine whether they had been resolved prior to our review. We included the prior audit
finding related to the disposition of assets in our overall finding on asset management because
the issue had not been adequately resolved. The State of Alaska Single Audit Reports contained
no findings or recommendations that affected the activities or accounting of the Department.




                                               3
                                   Results of Audit
Our audit disclosed that:

   ¾ except for the project level accounting issue reported below, the Division’s accounting
     system and related internal controls adequately and accurately accounted for grant and
     license fee receipts and disbursements;
   ¾ the direct and indirect costs were accurately reported and claimed;
   ¾ except for the asset management issue discussed below, the asset management system
     accurately identified and tracked personal and real property with regard to acquisition,
     control and disposal; and
   ¾ the State also had adequate legislation that assented to the provisions of the Acts and
     prohibited the use of license fees for anything other than the administration of the
     Department.

However, we found that:

     A. Costs of $13,006 were questioned because they were ineligible.

     B. The Department’s reported costs at the project level were not accurate.

     C. The Department’s asset management system did not identify purchases with license fee
        funds.




A. Questioned Costs
1. Profit Used as Match. Under Grant No. F-13-D-47, the Department entered into a subgrant
with the Igiugig Village Corporation to construct an access to the Kvichak River. The Igiugig
Village claimed, as part of its total subgrant costs, $8,087 of profit paid to its contracting
company. Under 43 CFR § 12.62 (a), allowable costs grant funds may be used for the allowable
costs of the grantees, subgrantees and cost-type contractors, including allowable costs in the
form of payments to fixed-price contractors; and reasonable fees or profit to cost-type
contractors but not any fee or profit to the grantee or subgrantee. The contacting company is
considered a component unit of the Igiugig Village Corporation and would not be eligible for
any fee or profit. The Department did not have procedures in place to determine the allowability
of the costs charged by local governments. As a result, costs of Grant F-13-D-47 were
overstated by $8,087.

       Recommendations
       We recommend that the FWS:

       a. Resolve the $8,087 of profit claimed under Grant No. F-13-D-47.


                                               4
       b. Require the Department to implement policies and procedures to determine the
          allowability of grant costs incurred by local governments under subgrants to ensure
          that such funds meet the requirements of 43CFR 12.62(a).

       Department Response
       After reviewing documentation supporting the reimbursement claims, the Department
       concluded that profit was not paid to the Village or its component units. The Department
       also stated that existing policies and procedures coupled with individual reinforcement
       conducted upon identification of the audit finding provides reasonable assurance that
       such an error will not occur again.

       FWS Response
       The FWS agreed with the finding. FWS added that they need more information from the
       Department including sub-grantee records that showed that profit was not included in the
       contract price charged to the project. The FWS will also review the Department’s current
       policies and procedures

       OIG Comments
       We consider the responses sufficient to consider this matter resolved but the
       recommendations not implemented. FWS should identify target dates and an official
       responsible for implementation of each recommendation.

2. Out of Period Costs. The Department claimed costs of $3,077, under Grant No. F-32-11,
for utility service at the Fort Richardson Hatchery for July 2002 even though the funding period
for this grant was July 1, 2001, through June 30, 2002. Under 43 CFR 12.63(a), “Where a
funding period is specified, a grantee may charge to the award only costs resulting from
obligations of the funding period…” The Department did not have procedures in place to ensure
that costs claimed for reimbursement were only those costs incurred within the grant period. As
a result, the costs charged to Grant F-32-11 were overstated by $3,077 and the costs charged to
the subsequent grant (F-32-12) were understated by $3,077.

       Recommendations
       We recommend that the FWS:

       a. Resolve the $3,077 of out of period costs claimed under Grant No. F-32-11.

       b. Require the Department to implement policies and procedures to allocate costs to the
          proper grant.




                                               5
       Department Response
       The Department acknowledged that utility costs for July 2002 were charged to F-32-11.
       The Department stated that it has had a long-standing formal policy that permitted such
       invoices to be paid from a single year appropriation. The policy authorized such
       expenditures as long as each fiscal year paid no more than 12 months of services. The
       Department also questioned if any substantive benefit could be gained from a
       requirement to prorate only the invoices funded with Federal grants that would require
       the Department to maintain two separate invoice payment processes. The Department
       requested that FWS allow the Department to maintain their existing practice which
       complied with their long standing policy.

       FWS Response
       The FWS concurred with the finding and noted that the Department’s policy contradicted
       43 CFR 12.63(a). The FWS will require the Department to change how grant costs are
       reported.

       OIG Comments
       We consider the responses sufficient to consider this matter resolved but not
       implemented. FWS should identify target dates and an official responsible for
       implementation of each recommendation.

3. Claimed Costs. The Department claimed $1,842 more than the total actual costs recorded for
Grant No. F-31-13 due to a posting error.

       Recommendation
       We recommend that the FWS resolve the $1,842 in excess costs claimed under Grant No.
       F-31-13.

       Department Response
       The Department provided an explanation for the error and requested that the cost
       recovery occur on the new grant.

       FWS Response
       The FWS agreed with the finding. The FWS received documentation that the credit was
       posted in the State’s accounting system but will require the Department to provide the
       details of the credited costs in the cash drawdown.




                                               6
       OIG Comments
       We consider the response sufficient to consider this matter resolved but not implemented.
       FWS should identify a target date and an official responsible for implementation of the
       recommendation.

B. Project Level Accounting
The Department’s project costs reported to FWS are not an accurate representation of a project’s
total costs. FWS required project level accounting for the major fish and wildlife grants
provided to the Department. As such, the Department must account for costs in a manner that
enables grant administrators to compare actual project costs to budgeted project amounts
contained in the grant agreement as required by 43 CFR 12.60. During our site visits, we found
that supervisors did not charge time to projects under their direct supervision even though time
was spent on the projects; an employee charged time based on the project’s budgeted project
time, and project costs records were adjusted in the Department’s internal system but not in
official state accounting system. As a result, FWS cannot rely on the reported project costs.

       Recommendations
       We recommend that the FWS:

       1. Require the Department to train staff on the requirements of accurately reporting and
          recording time charges.

       2. Require that all changes to subsidiary cost records be reflected in the State’s
          accounting system.

       Department Response
       The Department will further emphasize through formal training the importance of
       accurate time accounting. The Department will formalize existing policy, which requires
       the internal system to be reconciled with the State accounting system. Further, the
       Department will reiterate existing policy that the State accounting system represents the
       official accounting records for the Department.

       FWS Response
       The FWS agreed with the finding and the Department’s response and recognized the
       difficulty of obtaining 100 percent accuracy in recording employee time. The FWS
       suggested more frequent training on timesheet reporting and recommended that time
       sheet training be incorporated in the service division’s annual workshops. The FWS
       acknowledged the Department’s efforts to formalize the policy on reconciling the
       systems. FWS will require a copy of the policy when implemented.




                                                7
       OIG Comments
       We consider the response sufficient to consider this matter resolved but not implemented.
       FWS should identify target dates and an official responsible for implementation of each
       recommendation.

C. Asset Management
The Department’s asset management system did not identify assets purchased with license fee
funds. In addition, the Department did not have a policy for the disposal of assets purchased
with license fees or Federal Assistance funds. In accordance with 50 CFR § 80.4, revenues from
license fees paid by hunters and fishermen cannot be diverted to any purpose other than the
administration of the fish and wildlife agency. The revenues include fees from hunting and
fishing license sales and income from personal property acquired or produced with license
revenues. As such, and in our opinion, assets purchased with license revenues are limited to use
for fish and wildlife, with any revenues from sale or disposal limited to funding only fish and
wildlife activities. Similarly, those assets acquired with Federal Assistance can only be used for
purposes originally acquired throughout their useful life in accordance with 50 CFR § 80.18(c).

While we did not identify any diversion of use of property acquired with license revenues, a
diversion could occur if such property were transferred to a use not related to fish or wildlife. A
diversion of funds could also occur if the proceeds from the disposal of assets were improperly
credited to a fund other than the license fee fund. Since the Department did not have a procedure
in place requiring the identification of assets purchased with license fee funds, we have no
assurance that assets are controlled adequately to prevent such a diversion. In addition, the
Department cannot assure that property bought with Federal Assistance funds was being used for
the purposes for which it was originally acquired.

       Recommendations
       We recommend that the FWS require the Department to:

       1. Develop an asset management system that identifies those assets purchased with
          license revenues and Federal Assistance funds.

       2. Incorporate disposal procedures identified in 50 CFR for assets purchased with
          license fee funds or Federal assistance funds in its asset management policies and
          procedures.

       Department Response
       The Department adopted a procedure whereby assets purchased with licensing receipts
       must be recorded accordingly on the inventory tracking system. The Department will
       incorporate written procedures to ensure assets with a salvage value in excess of disposal
       costs are remitted to the Department for the subsequent benefit of the Department.




                                                8
FWS Response
The FWS agreed with the finding. The FWS will review the Department’s procedures on
the recording of assets purchased with license revenues. The FWS will require a copy of
the Department’s disposal procedure when finalized.

OIG Comments
We consider the responses sufficient to consider this matter resolved but the
recommendations not implemented. FWS should identify target dates and an official
responsible for implementation of each recommendation.




                                       9
                                                                                                 APPENDIX 1


             ALASKA DEPARTMENT OF FISH AND GAME
           FINANCIAL SUMMARY OF REVIEW COVERAGE

                Grant               Grant           Claimed             Questioned Costs**
               Number              Amount            Costs∗           Total        Federal Share
           F-10-16                $9,526,432        $9,596,323
           F-10-17                  9,696,350        9,474,635
           F-13-C-10                  425,000          425,501
           F-13-C-11                  415,414          389,056
           F-13-D-101                 200,000          158,636
           F-13-D-54                  560,000            18,339
           F-13-D-56                  660,000          402,065
           F-13-D-58                  200,000               9,972
           F-13-D-66                   33,334            25,000
           F-13-D-68                  210,000            12,928
           F-13-D-74                  400,000          287,968
           F-13-D-75                  105,000            21,748
           F-13-D-77                  110,000            20,206
           F-13-D-78                   88,000            38,000
           F-13-D-80                2,000,000               2,585
           F-13-D-83                   90,000            90,000
           F-13-D-84                   44,000            38,680
           F-13-D-85                   25,000                265
           F-13-D-87                  100,000            97,497
           F-13-D-89                   40,000            28,500
           F-13-D-90                   75,000            71,908
           F-13-D-91                   50,000            28,418
           F-13-D-92                  900,000          514,562
           F-13-D-93                   90,000            14,367
           F-13-D-95                  175,000          149,801
           F-13-D-96                   90,000               7,202
           F-13-D-97                  150,000            11,913

∗
 The amount includes the Department recorded amounts during the audit period. The amounts do not include
Department’s share of the indirect costs billed as grant costs.
**The questioned costs for Grant F-13-D-48 are not included in this schedule because the Department did not have
claimed costs during the period.




                                                       10
                                                           APPENDIX 1



    Grant     Grant       Claimed         Questioned Costs**
   Number    Amount        Costs∗       Total    Federal Share
F-13-D-98      132,000          8,834
F-13-D-99       40,000           250
F-13-M-26      397,500      285,527
F-13-M-27      232,400      188,606
F-13-M-28      364,746      362,151
F-13-M-29      230,232      193,717
F-31-12        405,132      422,077
F-31-13        396,440      379,457     $1,842           $1,382
F-32-10       2,811,332   2,816,548
F-32-11       2,795,432   2,648,730      3,077            2,308
F-36-D-1       170,200       16,250
FW-1-HP-4      226,134      162,572
FW-1-HP-5      138,507      103,092
W-27-4        8,332,534   9,986,480
W-27-5        9,342,150   9,893,300
W-29-D-1      2,500,000      53,850
W-30-D-1       110,000          9,415
W-31-D-1      1,500,000     234,697
W-31-HS-3       76,300       44,919
W-31-HS-4      117,725      193,969
W-32-E-1       100,000       14,326
            $56,877,294 $49,954,842     $4,919           $3,690




                           11
                                     APPENDIX 2



ALASKA DEPARTMENT OF FISH AND GAME
     SCHEDULE OF SITES VISITED
        Regional Offices:
          Anchorage
          Fairbanks

        Field/Area Offices:
           Palmer
           Soldotna
           Delta Junction

        Boating Access Sites:
          Cooper Landing
          Sportsmen’s Lodge

        Hatcheries:
          Elmendorf Hatchery
          Fort Richardson Hatchery




                        12
                                                                             APPENDIX 3



                ALASKA DEPARTMENT OF FISH AND GAME
                     STATUS OF AUDIT FINDINGS
                      AND RECOMMENDATIONS


 Recommendation                Status                     Action Required
A.1.a, A.1.b, A.2.a,    Findings resolved and   Provide a corrective action plan that
A.2.b, A.3, B.1, B.2,   Recommendations         includes the target date and the official
C.1, and C.2            Unimplemented.          responsible for implementation of each
                                                recommendation or an alternative
                                                solution. The unimplemented
                                                recommendations remaining at the end
                                                of 90 days (after October 11, 2004) will
                                                be referred to the Assistant Secretary of
                                                PMB for resolution and/or tracking of
                                                implementation.




                                         13
  Report Fraud, Waste, Abuse,
     and Mismanagement
             Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
                    General staff, Departmental
              employees, and the general public. We
                 actively solicit allegations of any
             inefficient and wasteful practices, fraud,
           and abuse related to Departmental or Insular
           Area programs and operations. You can report
                allegations to us in several ways.



By Mail:                 U.S. Department of the Interior
                         Office of Inspector General
                         Mail Stop 5341 MIB
                         1849 C Street, NW
                         Washington, D.C. 20240



By Phone:                24-Hour Toll Free          800-424-5081
                         Washington Metro Area      202-208-5300



By Fax:                  202-208-6081




By Internet:             www.oig.doi.gov
